App. 1
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50222
TERRY TRENTACOSTA,
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT
OF CRIMINAL JUSTICE, CORRECTIONAL INSTI­
TUTIONS DIVISION,
Respondent - Appellee
Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:18-CV-892
(Filed Oct. 25, 2019)
Before HIGGINBOTHAM, SOUTHWICK, and WIL­
LETT, Circuit Judges.
PER CURIAM:*
Terry Trentacosta, Texas prisoner # 1535182, was
convicted by a jury of five counts of aggravated sexual
* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5th Cir. R. 47.5.4.

App. 2
assault and two counts of indecency with a child and
sentenced to a total of sixty years’ imprisonment.1 In
January 2019, the district court dismissed Trentacosta’s years-late 28 U.S.C. § 2254 petition as untimely
and denied his subsequent Rule 59(e) motion to alter
or amend the judgment. Trentacosta now seeks a cer­
tificate of appealability (COA) on the district court’s re­
fusal to toll the statute of limitations or hold an
evidentiary hearing in light of his claim of actual inno­
cence. Trentacosta contends that the district court
should have tolled the limitations period and reached
the merits of his underlying ineffective-assistance
claim. He also seeks a COA on the district court’s de­
nial of his Rule 59(e) motion.
Actual innocence can serve as a gateway through
which a petitioner may raise § 2254 claims despite the
expiration of the limitations period.2 However, actualinnocence claims require new, reliable evidence, such
as “exculpatory scientific evidence, trustworthy eye­
witness accounts, or critical physical evidence.”3 The
petitioner must “persuade!] the district court that, in
light of the new evidence, no juror, acting reasonably,
would have voted to find him guilty beyond a reasona­
ble doubt.”4

1 Trentacosta v. State, No. 04-08-00805-CR, 2009 WL
2883024, at *1 (Tex. App. Sept. 9, 2009).
2 See McQuiggin v. Perkins, 569 U.S. 383, 392-93 (2013).
3 Schlup v. Delo, 513 U.S. 298, 324 (1995).
4 Id. at 329.

App. 3
Trentacosta’s arguments in support of a COA are
conclusory and unpersuasive. The affidavits he offers
as “new evidence” attempt to impugn the victim’s cred­
ibility and establish her motive to lie. Trentacosta does
not explain how this purportedly new evidence could
demonstrate that no reasonable juror would have
convicted him. Especially given that the victim’s testi­
mony was corroborated by physical evidence,5 reason­
able jurists could not debate either the district court’s
actual-innocence determination or its denial of an evi­
dentiary hearing.6 Moreover, because Trentacosta’s
Rule 59(e) motion merely rehashed his conclusory as­
sertion of entitlement to an evidentiary hearing on his
claim of actual innocence, the district court did not err
in denying it.
Trentacosta’s motion for a COA is therefore de­
nied, and the district court’s denial of an evidentiary
hearing is affirmed.7

5 See Trentacosta, 2009 WL 2883024, at *2.
6 See Slack v. McDaniel, 529 U.S. 473, 484 (2000).
7 Because no COA requirement “exists for an appeal from the
denial of an evidentiary hearing,” we “construe [Trentacosta’s] re­
quest for a COA on this issue as a direct appeal from the denial
of an evidentiary hearing.” Norman v. Stephens, 817 F.3d 226,
234 (5th Cir. 2016).

App. 4
APPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
TERRY TRENTACOSTA,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of
Criminal Justice,
Correctional Institutions
Division,
Respondent.

§
§
§

§ Civil No. SA-18§ CA-0892-FB
§
§
§
§
§
§

MEMORANDUM OPINION AND ORDER
(Filed Jan. 17, 2019)
Before the court are pro se petitioner Terry Trentacosta’s Petition for Writ of Habeas Corpus pursuant
to 28 U.S.C. § 2254 (ECF No. 1) and supplemental
Memorandum in Support (ECF No. 2), as well as re­
spondent’s Answer (ECF No. 11) and petitioner’s reply
(ECF NO. 12) thereto.1 Petitioner challenges the con­
stitutionality of his 2008 state court conviction for ag­
gravated sexual assault of a child and indecency with
a child by sexual contact, arguing that his trial counsel

1 Petitioner has paid the applicable filing fee for this cause
(ECF No. 1) and is represented by counsel in these proceedings.

App. 5
was ineffective for numerous reasons2 and that the ev­
idence was legally insufficient to support each element
of the charged offenses. In her Answer, respondent Da­
vis contends petitioner’s federal habeas petition should
be dismissed with prejudice as time-barred.
For the reasons set forth below, petitioner’s federal
habeas corpus petition is indeed untimely and is dis­
missed with prejudice as barred by the one-year stat­
ute of limitations embodied in 28 U.S.C. § 2244(d)(1).
Petitioner is also denied a certificate of appealability.
Background
In October 2008, petitioner was convicted of five
counts of aggravated sexual assault of a child and two
counts of indecency with a child by sexual contact, and
was sentenced to forty years of imprisonment for
each count of aggravated sexual assault and twenty
years of imprisonment for both counts of indecency
with a child. State v. Trentacosta, No. 2006-CR-6469
(399th Dist. Ct., Bexar Cnty., Tex. Oct. 7, 2008) (ECF
No. 10-7 at 87-100). His convictions and sentences
were affirmed on direct appeal, and the Texas Court of
Criminal Appeals (TCCA) refused his petition for dis­
cretionary review (PDR) on June 28,2010. Trentacosta
2 Specifically, petitioner faults counsel for failing to: (1) file a
motion to suppress the results of the search on his residence; (2)
file a motion to suppress the outcry statement of the victim in this
case; (3) present available witnesses on his behalf; (4) allow peti­
tioner to testify on his own behalf; (5) request funding for a DNA
expert; (6) obtain cell phone records; and (7) subject the State’s
case to meaningful adversarial testing.

App. 6
v. State, No. 04-08-00805-CR, 2009 WL 2883024 (Tex.
App.—San Antonio, Sept. 9, 2009, pet. ref d) (ECF No.
9-7); Trentacosta v. State, No. PD-0010-10 (Tex. Crim.
App.).
On February 8, 2012, Petitioner filed a motion for
forensic DNA testing in the trial court pursuant to
Chapter 64 of the Texas Code of Criminal Procedure.
(ECF No. 9-20). This motion was denied on March 25,
2013. (ECF No. 9-24). Petitioner appealed the denial of
the DNA motion to the Fourth Court of Appeals, who
affirmed the trial court’s decision in an unpublished
opinion delivered February 19, 2014. Trentacosta v.
State, No. 04-13-00287, 2014 WL 667534 (Tex. App.—
San Antonio, Feb. 19, 2014, no pet) (ECF No. 9-30). Pe­
titioner also sought mandamus relief from the Fourth
Court of Appeals regarding the trial court’s decision,
but this request was denied April 3, 2013. In re Trenta­
costa, No. 04-13-00057, 2013 WL 1342468 (Tex. App.—
San Antonio, Apr. 3, 2013) (ECF No. 9-26).
Thereafter, petitioner—now represented by cur­
rent counsel—waited until September 30, 2017, to file
a state habeas corpus application challenging the con­
stitutionality of his state court, convictions and sen­
tences, which was dismissed as noncompliant by the
TCCA on January 10, 2018. EX parte Trentacosta, No.
87,874-01 (Tex. Crim. App.) (ECF Nos. 10-3,10-4). Ten
days later, counsel filed a second state habeas corpus
application challenging the constitutionality of his
state court convictions and sentences, which the TCCA
denied without written order on July 18,2018. Ex parte
Trentacosta, No. 87,874-02 (Tex. Crim. App.) (ECF Nos.

App. 7
10-5, 10-7). The instant federal habeas petition was
later filed by counsel on August 29, 2018. (ECF No. 1).
Timeliness Analysis
Respondent contends petitioner’s federal habeas
petition is barred by the one-year limitation period of
28 U.S.C. § 2244(d). Under the AEDPA, a state prisoner
has one year to file a federal petition for habeas corpus,
starting, in this case, from “the date on which the judg­
ment became final by the conclusion of direct review or
the expiration of the time for seeking such review.” 28
U.S.C. § 2244(d)(1)(A); Palacios v. Stephens, 723 F.3d
600, 604 (5th Cir. 2013). In this case, petitioner’s con­
viction became final September 26, 2010, ninety days
after the TCCA refused his PDR and when the time for
filing a petition for writ of certiorari to the United
States Supreme Court expired. See Sup. Ct. R. 13;
Ott v. Johnson, 192 F.3d 510, 513 (5th Cir. 1999)
(“§ 2244(d)(1)(A). .. takes into account the time for fil­
ing a certiorari petition in determining the finality of a
conviction on direct review”). As a result, the limita­
tions period under § 2244(d) for filing a federal habeas
petition challenging his underlying convictions expired
a year later on September 26,2011. Because petitioner
did not file his § 2254 petition until August 29, 2018—
almost seven years after the limitations period ex­
pired—his petition is barred by the one-year statute of
limitations unless it is subject to either statutory or
equitable tolling.

App. 8
A. Statutory Tolling
Petitioner does not satisfy any of the statutory
tolling provisions found under 28 U.S.C. § 2244(d)(1).
There has been no showing of an impediment created
by the state government that violated the Constitution
or federal law which prevented petitioner from filing a
timely petition. 28 U.S.C. § 2244(d)(1)(B). There has
also been no showing of a newly recognized constitu­
tional right upon which the petition is based, and there
is no indication that the claims could not have been
discovered earlier through the exercise of due dili­
gence. 28 U.S.C. § 2244(d)(l)(C)-(D).
In addition, although § 2244(d)(2) provides that
“ [t] he time during which a properly filed application
for State post-conviction or other collateral review
with respect to the pertinent judgment or claim is
pending shall not be counted toward any period of lim­
itation under this subsection,” it does not toll the limi­
tations period in this case either. As discussed
previously, petitioner filed a post-conviction motion for
forensic DNA testing in the trial court in February
2012, a motion that would normally toll the limitations
period. See Hutson v. Quarterman, 508 F.3d 236, 240
(5th Cir. 2007) (holding that “a motion to test DNA ev­
idence under Texas Code of Criminal Procedure article
64 constitutes ‘other collateral review’ and thus tolls
AEDPA’s one-year limitations period under 28 U.S.C.
§ 2244(d)(1).”). Because the motion was filed several
months after the limitations period expired, however,

App. 9
it does not toll the one-year limitations period.3 Scott v.
Johnson, 227 F.3d 260, 263 (5th Cir. 2000). Similarly,
neither of petitioner’s state habeas applications toll
the one-year limitations period, as the first petition
was not filed until September 30, 2017, six years after
the limitations period expired.4 Id.
B. Equitable Tolling
The Supreme Court has made clear that a federal
habeas corpus petitioner may avail himself of the doc­
trine of equitable tolling “only if he shows (1) that he
has been pursuing his rights diligently, and (2) that
some extraordinary circumstance stood in his way and
prevented timely filing.”McQuiggin u. Perkins, 569 U.S.
383,391 (2013) (citing Holland v. Florida, 560 U.S. 631,
3 Petitioner also filed a petition for mandamus relief follow­
ing the denial of his DNA motion. (ECF No. 9-26). Similar to pe­
titioner’s DNA motion, the mandamus petition was filed after the
time for filing a federal petition under § 2244(d)(1) had lapsed.
Even if it had been filed before the expiration of the limitations
period, however, the mandamus petition would not toll the limi­
tations under § 2244(d)(2) because it did not seek review of the
underlying judgments and sentences. See Moore v. Cain, 298 F.3d
361, 367 (5th Cir. 2002) (finding a mandamus application did not
toll the limitations period because it was not a “properly filed ap­
plication for State post-conviction or other collateral review with
respect to the pertinent judgment.”).
4 Petitioner’s first state application would not operate to toll
the limitations period anyway because it was not properly filed.
An improperly filed state habeas petition has no effect on the oneyear time-bar. See Artuz v. Bennett, 531 U.S. 4, 8 (2000) (“[A]n
application is ‘properly filed’ when its delivery and acceptance are
in compliance with the applicable laws and rules governing fil­
ings.”).

App. 10
649 (2010)). However, equitable tolling is only availa­
ble in cases presenting “rare and exceptional circum­
stances,” United States u. Riggs, 314 F.3d 796, 799 (5th
Cir. 2002), and is “not intended for those who sleep on
their rights.” Manning v. Epps, 688 F.3d 177, 183 (5th
Cir. 2012).
■s

Petitioner did not reply to respondent’s assertion
of the statute of limitations in this case, nor did his pe­
tition and supplemental memorandum provide this
court with any valid reason to equitably toll the limi­
tations period. Petitioner does not assert any extraor­
dinary circumstance prevented him from filing earlier;
instead, he contends he was not able to obtain affida­
vits supporting his claims until sometime in 2017,
when he obtained enough financial assistance to afford
an attorney to assist him. (ECF No. 1 at 14). However,
the lack of representation, lack of legal training, igno­
rance of the law, and unfamiliarity with the legal pro­
cess do not justify equitable tolling. US. v. Petty, 530
F. 3d 361, 365-66 (5th Cir. 2008); see also Sutton v.
Cain, 722 F.3d 312, 316-17 (5th Cir. 2013) (a garden
variety claim of excusable neglect does not warrant eq­
uitable tolling).
Moreover, petitioner fails to demonstrate that he
has been pursuing his rights diligently. Although he
claims his supporting evidence was not discovered un­
til 2017, petitioner does not explain why his claims (or
supporting evidence) could not have been discovered
and presented at an earlier date. Because petitioner
failed to assert any specific facts showing that he was
prevented, despite the exercise of due diligence on his

App. 11
part, from timely filing his federal habeas corpus peti­
tion in this court, his petition is untimely and barred
by § 2244(d)(1).
C. Actual Innocence
Finally, petitioner briefly asserts his untimeliness
should be excused because of the actual-innocence ex­
ception. In McQuiggin, 569 U.S. at 386, the Supreme
Court held that a prisoner filing a first-time federal ha­
beas petition could overcome the one-year statute of
limitations in § 2244(d)(1) upon a showing of “actual
innocence” under the standard set forth in Schlup v.
Delo, 513 U.S. 298, 329 (1995). But “tenable actualinnocence gateway pleas are rare,” and, under Schlup's
demanding standard, the gateway should open only
when a petitioner presents new “evidence of innocence
so strong that a court cannot have confidence in the
outcome of the trial unless the court is also satisfied
that the trial was free of nonharmless constitutional
error.” McQuiggin, 569 U.S. at 386, 401 (quoting
Schlup, 513 U.S. at 316). In other words, Petitioner is
required to produce “new reliable evidence—whether it
be exculpatory scientific evidence, trustworthy eyewit­
ness accounts, or critical physical evidence”—sufficient
to persuade the district court that “no juror, acting rea­
sonably, would have voted to find him guilty beyond a
reasonable doubt.” Schlup, 513 U.S. at 324. Petitioner’s
conclusory assertions in this case fail to meet Schlup's
demanding standard. Consequently, the untimeliness
of petitioner’s federal habeas petition will be not

App. 12
excused under the actual-innocence exception estab­
lished in McQuiggin.
Conclusion
Based on the foregoing reasons, petitioner’s § 2254
petition (ECF No. 1) is barred from federal habeas cor­
pus relief by the statute of limitations set forth in 28
U.S.C. § 2244(d).
Accordingly, IT IS HEREBY ORDERED that:
1. Federal habeas corpus relief is DENIED and
petitioner Terry Trentacosta’s Petition for Writ of Ha­
beas Corpus pursuant to 28 U.S.C. § 2254 (ECF No. 1)
is DISMISSED WITH PREJUDICE as time-barred;
2. Petitioner failed to make “a substantial show­
ing of the denial of a federal right” and cannot make a
substantial showing that this court’s procedural rul­
ings are incorrect as required by Fed. R. App. P. 22 for
a certificate of appealability. See Slack v. McDaniel, 529
U.S. 473, 483-84 (2000). Therefore, this court DENIES
petitioner a certificate of appealability. See Rule 11(a)
of the Rules Governing § 2254 Proceedings; and
3. All other remaining motions, if any, are DE­
NIED, and this case is now CLOSED.

App. 13
It is so ORDERED.
SIGNED this the 17th day of January, 2019.
/s/
FRED BIERY
UNITED STATES
DISTRICT JUDGE

App. 14
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
TERRY TRENTACOSTA,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of
Criminal Justice,
Correctional Institutions
Division,
Respondent.

§
§
§

§ Civil No. SA-18§ CA-0892-FB
§
§
§
§
§
§

JUDGMENT
(Filed Jan. 17, 2019)
The Court has considered the Judgment to be en­
tered in the above-styled and number cause.
Pursuant to this court’s Memorandum Opinion
and Order of even date herewith, IT IS HEREBY OR­
DERED, ADJUDGED and DECREED that peti­
tioner Terry Trentocosta’s petition for writ of habeas
corpus pursuant to 28 U.S.C. § 2254 (ECF No. 1) is
DISMISSED WITH PREJUDICE. No Certificate of
Appealability shall issue in this case. This case is now
CLOSED.

App. 15
It is so ORDERED.
SIGNED this the 17th day of January, 2019.
/s/ Fred Biery
FRED BIERY
UNITED STATES
DISTRICT JUDGE

App. 16
APPENDIX C
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
TERRY TRENTACOSTA,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of
Criminal Justice,
Correctional Institutions
Division,
Respondent.

§
§
§

§ Civil No. SA-18§ CA-0892-FB
§
§
§
§
§
§

ORDER
(Filed Feb. 7, 2019)
Before the court is petitioner Terry Trentacosta’s
Motion to Alter or Amend Judgment (ECF No. 15). On
January 17, 2019, this Court dismissed petitioner’s 28
U.S.C. § 2254 Habeas Corpus Petition with prejudice
as untimely (ECF No. 13). Petitioner now seeks recon­
sideration of this ruling pursuant to Rule 59 of the Fed­
eral Rules of Civil Procedure, arguing the Court erred
in refusing to apply the actual-innocence exception es­
tablished in McQuiggin v. Perkins, 569 U.S. 383, 386
(2013).
The purpose of a Rule 59(e) motion is “to correct
manifest errors of law or to present newly discovered

App. 17
evidence.” Waltman v. Inti Paper Co., 875 F.2d 468,473
(5th Cir. 1989). As such, to prevail on a Rule 59(e) mo­
tion, a petitioner must demonstrate the existence of:
(1) an intervening change of controlling law; (2) the
availability of new evidence; or (3) the need to correct
a clear error or to prevent manifest injustice. Waltman,
875 F.2d at 473; Fontenot v. Mesa Petroleum Co., 791
F.2d 1207, 1219 (5th Cir. 1986). Petitioner does not
make this showing.
It is therefore ORDERED that petitioner’s Rule
59(e) Motion to Alter or Amend the Judgment filed
January 19, 2019 (ECF No. 15) is DENIED.
It is further ORDERED that a certificate of ap­
pealability is DENIED, as reasonable jurists could not
debate the denial of the petitioner’s Rule 59(e) motion
on substantive or procedural grounds, nor find that the
issues presented are adequate to deserve encourage­
ment to proceed. Miller-El v. Cockrell, 537 U.S. 322,327
(2003).
It is so ORDERED.
SIGNED this the 7th day of February, 2019.
/s/ Fred Biery
FRED BIERY
UNITED STATES
DISTRICT JUDGE

App. 18
APPENDIX D
AFFIDAVIT
STATE OF TEXAS

§
SS:

COUNTY OF BEXAR §
The undersigned, of lawful age, being duly sworn,
upon oath deposes and states;
I, Jo Anne Joslin, introduced Terry Trentacosta to
the owner of the property at 213 West Legion Drive,
Converse, Texas 78109, Bexar county. Said property
was involved in a alleged crime, involving Amanda
Worswick and Terry Trentacosta. The owner of the
property Mr. and Mrs. Brouland agreed to rent to Terry
Trentacosta after Mr. Les Brouland met with Terry
Trentacosta at my place of employment at the time,
The Sportsman, located in Converse, Texas, Bexar
County. Terry Trentacosta and Les Brouland talked
about said property, then they drove to it to let Terry
Trentacosta do a walk thur. The property needed much
work before someone could live in it. The sheetrock
needed repairs, because someone vandalized a few
walls, and the whole place need some paint. Everyone
came to terms that the property would be rented to
Terry Trentacosta, and Terry Trentacosta would make
all the repairs and take responsibility of the property
from that day forward. Talk was mentioned about a
rent to own agreement, but the contract was never
drawn up. On or About February 25th,2006, Lori Hackworth and her dauahters;Amanda Worswick, and
Alyssa Worswick vacated ans abandoned said property

i

App. 19
at 213 West Legion Drive Converse, Texas 72109,
Bexar County, with this being said, that would leave
Terry Trentacosta sole authority over said property at
213 West Legion Drive, Converse, Texas, Bexar County.
Debra Worswick-Bianchi had no authority to let the
Converse Police into the said residence while Terry
Trentacosta was at work or other places. And Lori
Hackworth relinquished any authority she might have
had when she abandoned the property.
I, Jo Anne Joslin am able to swear and do swear,
that all the facts stated and statements contained in
this Affidavit are true and correct.
/s/ Jo Anne Joslin
JO ANNE JOSLIN
GIVEN under my hand and seal of office this 28th
day of October 2013.
/s/ Joseph A. Guastella
NOTARY PUBLIC
[NOTARY STAMP]

App. 20
AFFIDAVIT

THE STATE OF TEXAS
COUNTY OF BEXAR

§
§

SWORN
DECLARATION

BEFORE ME, Jo Ann Joslin the undersigned au­
thority on this day personally appeared, Jo Anne
Joslin, who after being duly sworn stated:
“I held in my possession two note books which
were previously owned by Amanda Worswick, and they
contained comments on fighting other girls; boys butts;
and one had a list of ways to get rid of your step-dad.
Also I had photos of the inside of 213 W. Legion, Con­
verse Texas 78109, The house were the false accusa­
tions were to have taken place. I released the items to
Terry Trentacosta, so he could pass them to his attor­
ney Brent De La Paz, to aid the defense in proving his
innocence. There was also a valentines card from
Amanda Worswick to Terry Trentacosta. None of these
items were presented to the trial court or jury, infact
Brent De-La Paz never showed up to court either, only
the attorney who was to pick out a winning jury. After
Terry Trentacosta’s conviction I’ve called Brent De La
Paz to have him release said items to myself or to send
to Terry Trentacosta. My phone calls were never re­
turned and none of Terry Trentacosta’s letters have
ever been answeared either.”
I, Jo Anne Joslin, declare under the penalty of per­
jury laws of both the United States of America, and the

App. 21
State of texas, that the foregoing is true and correct to
the best of my knowledge and belief.
/s/ Jo Anne Joslin
Jo Anne Joslin
101 Ave. G Apt. A
ADDRESS
Converse, Texas 78109
CITY STATE ZIP CODE
Subscribed and Sworn to
before me, the undersigned
authority,____________________
On this 28th day, of October
2013,and to Certify which witness
my Hand and Seal of Office
[NOTARY STAMP]
NOTARY PUBLIC, BEXAR CO. TX.

App. 22
AFFIDAVIT
STATE OF OKLAHOMA

)(

COUNTY OF COMANCHE

)(
)(

SS:

BEFORE ME, the undersigned authority,
personally appeared, David Millspaugh, known
to me who after being by me duly sworn on oath
deposed and stated as follows:
My name is David Millspaugh, I am over the
age of eighteen years and I am competent to
make this sworn statement. Further, I state un­
der oath that I have personal knowledge of the
facts stated herein in this affidavit and that the
same are based upon my personal knowledge
and are true and correct to the best of my
memory and recollection. I am making this affi­
davit for purposes of the criminal case of State
of Texas vs. Terry Trentacosta, TDCJ-CID No.
1535182, who is incarcerated in the Texas prison
system due to a conviction in cause number
2006-CR-6449 in the 399th Judicial District Court
of Bexar County, Texas.
I have personally known Terry Trenta­
costa for over 20 years. Terry is a very
thoughtful and caring person. During those
20+ years I have never heard Terry talk in a
perverted way about children.
I spent considerable time with Terry and
Lori, the mother of the alleged victim in cause
2006-CR-6449, in San Antonio, weeks at a

App. 23
time. I saw the family environment of their
home. It was routine: Terry would rise early
and cook breakfast daily. He and his girlfriend
Lori would then go to work. When the work­
day ended, he would have the girls, Amanda
and Alyssa, complete their homework as he
would cook. He had the girls in bed early each
night, around 8pm always.
Terry had a very positive relationship
with the younger girl “Alyssa.” The older girl,
Amanda, was another story. Amanda did not
like Terry at all. She did all she could to show
it. She would unreasonably defy him at every
turn. Amanda was the alleged victim in the
criminal case, 2006-CR-6449. Terry and Lorry
had Amanda on restriction often. At Terry’s
trial the prosecution painted the picture that
Terry had a good relationship with Amanda,
but that was not true. Terry and Amanda were
like oil and water, they did not mix.
I was not surprised when Amanda pulled
the rape card, that is, claiming that Terry had
sexually assaulted or abused her. It was a
good way for Amanda to get rid of Terry for
good. Amanda had a friend who had recently
done the same with her step dad. Their stories
were probably the same and this was not even
investigated.
Although I was not surprised that
Amanda made that claim, I was surprised she
would claim Terry came to her room in the
middle of the night. The reason I say this is
due to the fact the house had all the bedroom

App. 24
doors within inches of each other. It would
have been almost impossible for him to do
that with her mother well within earshot. The
whole scenario as alleged by Amanda was too
much to swallow. You could have heard every­
thing from one room to the other. My biggest
problem with all of this is because Amanda’s
written statement changed to suit her agenda.
The defense attorney neglected to bring up
Amanda’s character and reputation. She had
been in trouble at school on numerous occa­
sions. Amanda had been suspended for her
fighting and lying more than once. Amanda
also would not adhere to dress codes put in
place by the school system, she liked dressing
provocatively. Terry had his hands full with
her.
Terry had been paying Mr. Brent De la
Paz, Terry’s original attorney, for about two
and a half years before the trial. A week before
trial, Terry was notified that his attorney of
record could not show. Mr. Fernando Cortes,
who had been hired only for jury selection was
then to be Terry’s trial attorney. Cortes
wanted five thousand dollars immediately. He
told Terry it was his life and if he wanted free­
dom, he would come up with the money.
I told Terry to wait and postpone the trial.
He wanted it all over and risked it all on this
new attorney. I watched the final day of the
trial. Cortes was being coached by Terry on
what to say. Cortes did not even know the al­
leged victim’s name. I was appalled that the
Judge did not stop the whole thing.

App. 25
Terry was found guilty and the court
broke for lunch. Attorney Cortes told me to get
Terry as far away from that county as possible
and to go to an Indian Reservation. Cortes
said Terry’s life was over. Cortes admitted to
me that he did a poor job and said that he
would be willing to help free Terry but he
could never be contacted again after that day.
Terry’s original attorney, Brent De la Paz,
could not be contacted either. Both attorneys
hung Terry out to dry. I’m shocked at the in­
justice due to negligence that took place.
Amanda cannot be trusted. Her story
changed about the sexual assaults she claims
took place. She alleged in the beginning that
Terry had digital penetration with her 18 to
20 times. After it was proved she was a virgin,
her story changed to oral sex.
Terry was sentenced to a total of 240
years.
It is clear from just this overview that
something went way wrong. I was not even
called to testify on behalf of Terry. In fact, no­
body testified for the defense except Terry’s
mother, who is now deceased. I was present in
the court room, in San Antonio, during the
trail and willing to testify for the defense
about the facts contained in this affidavit.
Terry should have been freed long ago.
This case should never have gone to trial
based on Amanda’s contradictory stories. In

\

App. 26
my opinion Amanda is not a credible person,
not a truth teller.
FURTHER AFFIANT SAYETH NOT.
/s/ David Millspaugh
David Millspaugh,
Affiant
SUBSCRIBED AND SWORN to on this 7th day of
Aug.. 2017
/s/ Brandy Roberts
Notary Public
My Commission expires:
05/07/21

[NOTARY STAMP]

App. 27

AFFIDAVIT OF KAREN ROGNE DECARLO
THE STATE OF FLORIDA

&

COUNTY OF Sumter

&

Affiant Karen Rogne DeCarlo, being first sworn on
her oath and known to me, the undersigned Notary
Public, deposes and says as follows: “My name is Karen
Rogne DeCarlo. I am over the age of 21.1 have personal
knowledge of the facts stated in this affidavit, and I am
competent to testify to these facts. This affidavit is be­
ing made for the benefit of Terry Trentacosta (“Terry”),
who is imprisoned in the Texas prison system. Terry’s
prison number is 1535182. This affidavit concerns
Terry Trentacosta’s conviction in cause number 2006CR-6449, in the 399th Judicial District Court of Bexar
County, Texas. Terry Trentacosta is my maternal first
cousin.
When I first met Lori Hackworth and her two
daughters, Amanda and Alissa, Lori and Terry related
to me that Terry had rescued Lori from an abusive hus­
band/relationship during the 1990s while living in the
same apartment complex in Converse, Texas. I was so
proud of Terry for trying to help Lori and her girls.
Terry lived with his mother and my maternal Aunt, JoAnn Joslin, who sadly died in September, 2014. Terry
and Lori, along with the two girls, Amanda and Alissa,
moved in together and attended family events through
the years as a family. At first, Lori was very quiet and
sweet, but blossomed over the years, and her girls
loved our family and vice versa. I have a good memory

App. 28
for past conversations between and among people, and
the content of those conversations.
During 2007, when my husband was assigned to
the United States Embassy in Pakistan, and had a fol­
low-up assignment to Randolph Air Force Base in
Texas, I moved to Texas after accepting a promotion
from a Public Affairs Specialist with the 16th Services
Squadron at Hurlburt Field, Florida to a contracting
specialist/analyst at the NAF Purchasing Office with
the Air Force Services Agency (world-wide headquar­
ters) in San Antonio, Texas. Since my husband Matt
DeCarlo was stationed in Pakistan for a year with the
U.S. Air Force, I lived with my mother, Patricia Rogne,
and step-father, Tom McLeod, at 8311 Athenian Street,
Universal City, Texas 78148.
During the period of 2007 and 2008,1 had several
conversations with Terry and Lori regarding why
Lori’s oldest daughter, Amanda, was accusing Terry of
inappropriate behavior. Both Lori and Terry related to
me that Amanda was given the idea to so accuse Terry
from a friend of hers at school so she could get rid of
Terry. I asked Terry and Lori why as she seemed so
happy with them, and they replied that Amanda was
caught lying and was having behavioral problems as
she grew older; and that Terry was discipling Amanda
like a father-figure. They both said that Terry never did
anything inappropriate to Amanda, and that Lori was
secretly seeing Terry because she loved Terry, but that
the District Attorney’s Office at Bexar County, Texas
and child protective services threatened to take her
two daughters away from her if she did not testify

App. 29
against Terry in criminal cause 2006-CR-6449, and
stay away from Terry. Eventually, Lori stopped seeing
Terry.
Although I did not attend the trial, my mother and
aunt told me that they were told to leave the court­
room, on several occasions, and were unable to hear
first-hand most of the testimony of witnesses. To my
knowledge not one family member or friend of Terry’s
was called to testify at his trial. Myself and our family
was shocked that Terry was indicted in the above
cause, and convicted for an offense in which Lori’s
daughter, Amanda, was the complainant. It would be
entirely out of character for Terry to do what he was
charged with doing which involved Amanda. I was not
interviewed by a defense counsel for Terry prior to his
trial and not called to testify. I would have been willing
to testify to the facts stated in this affidavit at an ap­
propriate time at a trial.
/s/

Karen Rogen DeCarlo
KAREN ROGEN DECARLO
Affiant”
4049 Nostalgia Terrace,
The Villages, Florida 32163

App. 30
Subscribed and sworn to before me, the under­
signed Notary Public, on this 2nd day of August. 2017.
/s/ Gregory Gilbert
NOTARY PUBLIC
My Commission expires:
April 14. 2019

[NOTARY STAMP]

\

X.

App. 31
AFFIDAVIT OF HARRY J. BONNELL. M.D.
THE STATE OF
SS:
COUNTY OF
Affiant Harry J. Bonnell, M.C., deposes and says
as follows: “My name is Harry J. Bonnell. I am over the
age of 21, personally acquainted with the facts stated
herein, and I am competent to testify to such facts. I
am making this affidavit for purposes of the criminal
case of Terry Trentacosta, prison number 1535182,
who is imprisoned in the Texas prison system. This af­
fidavit concerns matters involving Mr. Trentacosta’s
trial and conviction in criminal cause number 2006CR-6449 in the 399th Judicial District Court of Bexar
County, Texas.
I am a medical doctor, currently employed as a Fo­
rensic Pathologist licensed to practice medicine in the
State of California. I attended Georgetown University
Medical School and graduated from that program in
1979. I have taught at the University of Washington,
Madigan Army Medical Center, King County Correc­
tions Center, Uniformed Services University of Health
Sciences, University of Cincinnati College of Medicine,
and the School of Medicine at the University of Cali­
fornia, San Diego
From 1999-2001 I was the Chief Deputy Medical
Examiner for the Office of the Medical Examiner in
San Diego, California. I have also served as Chief Dep­
uty Coroner and Director of Forensic Pathology of
Hamilton County, Ohio, staff Pathologist in the

App. 32
Forensic Sciences Department at the Armed Forces In­
stitute of Pathology, and Assistant Medical Examiner
of King County, Washington. I have personally per­
formed over 7000 autopsies and provided sworn testi­
mony more than 900 times in the Superior Courts of
twenty states, six federal court jurisdictions, and eight
military courts. A true and correct copy of my curricu­
lum vitae is attached as Exhibit A.
Based on my education, training and experience,
and my review materials in the Terry Trentacosta case
and material cited below, it is my opinion to a reason­
able degree of medical certainty that:
a. Forensic science analysis of non-forensic med­
ical articles relied upon by the Sexual Abuse Nurse Ex­
aminer at the trial of Terry Trentacosta has shown
that analysis to be scientifically unreliable.
i. Genital Anatomy in Pregnant Adoles­
cents: “Normal” does not mean “nothing happened.” N.
Kellogg M.D., Pediatrics 113. No. 1, January 2004.
Copy attached as Exhibit B is wrongly referred to as
proof that that genitalia return to a normal appear­
ance after time even if there has been sexual assault
or penetration. This ignores the known fact that pre­
ejaculation fluid contains sperm so that ejaculation is
not required and mobile sperm can enter through the
cervix to impregnate the ovum within the uterus. It
also falsely assumes there was any trauma to begin
with or that the females were/were not willing part­
ners.

App. 33
ii. The Evaluation of Sexual Abuse in Chil­
dren. N. Kellogg, M.D., Pediatrics 116 No. 2, August
2005, and noted as a revision of the previous policy in
Edition 103 No. 1, in 1999. This article states that “the
interpretation of physical findings continues to evolve
as evidence-based research becomes available.” The
most serious flaw in this and other similar articles is
that they address victims of sexual abuse as the same
as victims of alleged sexual abuse with no independent
confirmation that abuse ever occurred, i.e., there is no
scientific “control” population. Attached as Exhibit C.
b. Subsequent forensic medical science research
and reports disprove sexual abuse Nurse Examiner’s
testimony. Based on the article Updated Guidelines for
the Medical Assessment and Care of Children Who
May Have Been Sexually Abused, N. Kellogg and nine
other child abuse experts, published in 2016 in the
Journal of Pediatric and Adolescent Gynecology (29).
Attached as Exhibit D. This article figured strongly in
the appeal and exoneration of the so-called “San Anto­
nio 4.”
The title of the article amends previous articles by
including “may have been sexually abused.”
Table 3 of the article cites medical findings that
were previously thought to indicate abuse but no
longer do, fulfilling the 2005 admonition regarding ev­
idence-based research’s potential value.
The indications for urgent evaluation have
changed in the interim.

App. 34
The requirement for documentation and review
have been strengthened.
The following paragraph is excerpted in its en­
tirety for obvious reasons:
“While the child’s history remains the most im­
portant piece of evidence in child sexual abuse evalua­
tions, physical findings resulting from sexual abuse,
when present, are important in the investigation and
legal arenas. Examiners must critically evaluate find­
ings in the context of the known medical literature.
Many studies suggest that inexperienced examiners
are far more influenced by the history than are more
experienced examiners in assessing examination find­
ings. Although it is not clear at what level of experience
an examiner becomes an expert, it is certainly through
training, clinical experience, knowledge of the current
literature, continuing education, and engagement in
review or oversight of cases. One study demonstrated
that variability in interpretation of such findings ap­
pears to be linked to level of training, profession, expe­
rience and knowledge of literature.
I am not being reimbursed in any manner for ren­
dering this opinion and am willing to provide testi­
mony if required, hopefully with travel costs
reimbursed.”

App. 35
/s/ Harry J. Bonnell, M.D._____
HARRY J. BONNELL, M.D.,
Affiant

On this day personally appeared before me, the
undersigned Notary Public, who, being duly sworn by
me, stated on his oath that he has read the foregoing,
and that it is true and correct.
Subscribed and sworn to before me, the under­
signed Notary Public, on this 2nd day of August. 2017.
/s/ Leanne J. White
NOTARY PUBLIC [Leanne
J. White for South Carolina]
My Commission Expires:
MY COMMISSION EXPIRES
20 JUNE 2018
[NOTARY STAMP]

